No.
IN THE

SUPREME COURT OF THE UNITED STATES
Sedfrey M. Linsangan,
Petitioner,
vs.
Alice M. Taijeron; et al.,

Respondents.

MOTION FOR LEAVE PURSUANT TO RULE 40
Petitioner is invoking on Rule 40, to proceed on papers prepared as required
by Rule 33.2 and ask leave to proceed as a Veteran in order to be exempted
from payment of fees oncosts.

Respectfully Submitted,

Sedfrey M. Linsangan
Pro Se, Petitioner

No.

IN THE

SUPREME COURT OF THE UNITED STATES

Sedfrey M. Linsangan,

Petitioner,
vs.
Alice M. Taijeron; et al.,
Respondents.

AFFIDAVIT OR DECLARATION

IN SUPPORT OF MOTION FOR LEAVE

I, Sedfrey M. Linsangan, am the Petitioner in the above entitled

case, declares that I am a U.S. Veteran in support of my motion to

proceed as a Veteran. My status is a Veteran of the Peacetime

and Verified as Service Disabled Business Owned Small Business.

Attached is a copy of my Veteran ID and my Veteran Medical Card.

Dated: 1^15/20

Respectfully Submitted,

Sedfrey M. Linsangan
Pro Se, Petitioner
P.O. Box 23128
Barrigada, Guam 96921
Telephone: (671)929-1616
E-Mail: guampacific@gmail.com

